<html>
<title> - AFTERMATH OF FRAUD BY IMMIGRATION ATTORNEYS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                         AFTERMATH OF FRAUD BY 
                         IMMIGRATION ATTORNEYS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2012

                               __________

                           Serial No. 112-135

                               __________

         Printed for the use of the Committee on the Judiciary




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




      Available via the World Wide Web: http://judiciary.house.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-309 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





















                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO R. PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel
















                            C O N T E N T S

                              ----------                              

                             JULY 24, 2012

                                                                   Page

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     2

                               WITNESSES

Waldemar Rodriguez, Deputy Assistant Director, Transnational 
  Crime and Public Safety Division, Homeland Security 
  Investigations, U.S. Immigration and Customs Enforcement (ICE), 
  U.S. Department of Homeland Security (DHS)
  Oral Testimony.................................................     4
  Prepared Statement.............................................     6
Sarah M. Kendall, Associate Director, Fraud Detection and 
  National Security Directorate, U.S. Citizenship and Immigration 
  Services
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15
Chris Crane, President, National Immigration and Customs 
  Enforcement Council 118, American Federation of Government 
  Employees
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27
Laura Lichter, President, American Immigration Lawyers 
  Association
  Oral Testimony.................................................    33
  Prepared Statement.............................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by Sarah M. Kendall, Associate Director, Fraud 
  Detection and National Security Directorate, U.S. Citizenship 
  and Immigration Services.......................................    43

 
                         AFTERMATH OF FRAUD BY 
                         IMMIGRATION ATTORNEYS

                              ----------                              


                         TUESDAY, JULY 24, 2012

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:08 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, King, Gowdy, and 
Lofgren.
    Staff Present: (Majority) Dimple Shah, Counsel; Andrea 
Loving, Counsel; Emily Sanders, Professional Staff Member; 
(Minority) David Shahoulian, Subcommittee Chief Counsel; and 
Gary Merson, CIS Detailee.
    Mr. Gallegly. I call to order the Subcommittee and welcome 
to the hearing of the Subcommittee on Immigration Policy and 
Enforcement. I especially want to welcome our witnesses and 
thank you all for joining us here today.
    I am joined by my colleague from California, the 
distinguished Ranking Member of the Subcommittee, Ms. Lofgren, 
and we will start the hearing with an opening statement and 
then we will allow Ms. Lofgren to have her opening statement.
    Unscrupulous notary publics, immigration consultants, and 
immigration lawyers have increasingly utilized fraudulent 
tactics to obtain immigration benefits for their clients. 
Unfortunately, this type of immigration fraud is usually 
identified after the fact, when an immigrant has already 
fraudulently obtained the benefit.
    In order to combat this fraud, on June 9, 2011, the 
executive branch unveiled a multi-agency nationwide immigration 
service scams initiative. As part of the initiative, the 
Department of Justice works with ICE and USCIS investigators to 
secure convictions--with sentences up to 8 years in prison and 
forfeiture and restitution of over $1.8 million--for those who 
commit fraud on the immigration system as legal 
representatives.
    But what of the immigrants who receive the immigration 
benefits based upon fraudulent applications? On its ICE Web 
site, ICE boasts of numerous instances where Homeland Security 
investigations charged, and the Department of Justice has gone 
on to prosecute and convict, attorneys committing fraud. In one 
of the largest cases in immigration fraud history, Earl Seth 
David and his law firm submitted fraudulent claims to labor and 
immigration authorities concerning tens of thousands of 
immigrants sponsored for immigration benefits. David pled 
guilty and faces a minimum sentence of 25 years in prison. To 
date, the government has identified at least 25,000 
applications submitted by his firm.
    In another example, Maryland lawyer Patrick Tzeuton was 
convicted of conspiracy to prepare false asylum applications, 
immigration fraud, and obstruction of official immigration 
proceedings. Tzeuton prepared over 1,100 asylum applications, 
many of which are believed to be fraudulent. In support of 
these applications, he and his assistants submitted fraudulent 
supporting affidavits such as fake medical certificates 
demonstrating that an immigrant had been beaten and tortured in 
Cameroon. So far, of the 1,100-plus cases he handled, only 40 
have been identified for further action by ICE and referred to 
USCIS. Tzeuton was convicted in 2009. None of the immigrants 
involved have been removed as of this date.
    The jury is still out on whether DHS makes a concerted and 
vigorous effort to go back and revoke immigration benefits 
after attorneys have been found to engage in fraud. In some 
instances, DHS has apparently revoked thousands of benefits. In 
other cases, little seems to have been done, even where 
attorneys were convicted years ago and DHS boasted of 
uncovering the fraud. Clearly, how DHS responds to the David 
case will be the acid test of its commitment.
    Immigrants who obtain benefits by fraud with the assistance 
of counsel make a mockery of our immigration system, which is 
the most generous anywhere in the world. We must hope that at 
the very least when DHS proclaims that it has uncovered 
immigration attorney fraud, it will conduct a thorough case-by-
case review of immigrants that that attorney represented.
    At this point I will yield to the gentlelady from 
California, the Ranking Member, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Today's hearing is an important one. Immigration fraud 
undermines the integrity of the U.S. immigration system. At the 
same time, it harms innocent victims, delays adjudications for 
legitimate individuals and employers, and can cost the 
government significant resources. Immigration fraud, especially 
when committed by members of the Bar, is deplorable and it has 
no place in our system.
    One of the fraud schemes mentioned by the Chairman we will 
discuss today was massive. That is the fraud scheme of New York 
attorney Earl Seth David, who may have submitted as many as 
25,000 fraudulent applications and petitions, according to the 
U.S. Attorney's Office in the Southern District of New York. 
USCIS, ICE, the Department of Labor, and the U.S. Attorney's 
Office should be commended for identifying, investigating, and 
successfully prosecuting this fraud. But work needs to be done. 
As we will hear today, USCIS is reviewing the immigration cases 
connected to the David fraud scheme to ensure that benefits 
were properly granted, and USCIS will continue to take action 
to revoke or rescind those that were not.
    I oppose fraud, and earlier in this Congress I introduced 
the Student Visa Reform Act to address fraud in our student 
visa program. That legislation would require that colleges and 
universities be fully accredited before they can accept and 
enroll foreign students. If enacted, my bill would go a long 
way toward ending large-scale immigration fraud schemes 
recently uncovered in various institutions throughout the 
country. I want to thank Chairman Smith for working with me on 
this bill and for his efforts to have the bill considered on 
the House floor.
    Based on what we learn at this hearing, we may very well 
need to work together to address fraud in other areas as well. 
For example, USCIS may need additional authority to conduct 
site visits or audits in questionable cases. When conducted in 
an efficient manner that is not redundant or overly burdensome, 
site visits and audits can be effective tools to combat fraud. 
I will work with my colleagues and USCIS leadership to explore 
this and other means to ensure the continued integrity of the 
immigration system.
    While we seek ways to prevent immigration fraud, I do want 
to sound a cautionary note and provide a bit of context. The 
immigration fraud we discuss today is significant, but we must 
keep in mind that USCIS adjudicates some 6 million immigration 
benefits applications and petitions annually--the vast majority 
for qualified and legitimate individuals and employers.
    Additionally, although some immigrants are complicit in 
fraud, some are unwilling victims. Some may have been truly 
eligible for immigration benefits but nevertheless charged 
exorbitant legal fees or left to wait months or even years for 
applications that were never properly filed. Some were taken 
advantage of and are now paying the price as their hopes of 
becoming permanent residents or U.S. Citizens are delayed or 
even shattered. So we must consider such victims when we decide 
how to move forward. To allow immigration fraud to irreparably 
harm vulnerable innocents who are in fact eligible for 
immigration benefits would only add insult to injury.
    We have a distinguished panel, including government 
officials from ICE and USCIS here today, and I look forward to 
hearing their testimony, Mr. Chairman, and I yield back.
    Mr. Gallegly. I thank the gentlelady.
    At this time we will go to our panel of witnesses. Our 
first witness is Mr. Waldemar Rodriguez. He currently serves as 
the Deputy Assistant Director for Homeland Security 
Investigations' Transitional Crime and Public Safety Division. 
Prior to this assignment, Mr. Rodriguez served as DAD for HSI 
Domestic Operations, acting as Assistant Director for the HSI 
Workforce Management Division and as the Unit Chief for HSI 
Workforce Management Staffing Solution Unit at the U.S. 
Immigration and Customs Enforcement.
    Mr. Rodriguez began his law enforcement career in 1991 as a 
police officer with the Puerto Rico Police Department. In 1997, 
Mr. Rodriguez entered the Federal service as a Special Agent 
with the Office of Inspector General, Federal Emergency 
Management Agency, and then transferred to the former U.S. 
Customs Service as a Special Agent in 2001. Mr. Rodriguez holds 
a Bachelor of Arts Degree in social services from the 
University of Turabo and a Master's Degree in public 
administration from the University of Puerto Rico.
    Welcome, Mr. Rodriguez.

  TESTIMONY OF WALDEMAR RODRIGUEZ, DEPUTY ASSISTANT DIRECTOR, 
   TRANSNATIONAL CRIME AND PUBLIC SAFETY DIVISION, HOMELAND 
     SECURITY INVESTIGATIONS, U.S. IMMIGRATION AND CUSTOMS 
 ENFORCEMENT (ICE), U.S. DEPARTMENT OF HOMELAND SECURITY (DHS)

    Mr. Rodriguez. Chairman Gallegly, Ranking Member Lofgren, 
thank you for the opportunity to discuss ICE's efforts to 
address large-scale immigration benefit fraud, our 
investigation into the Earl David Law Firm, as well as our 
efforts to investigate benefit fraud facilitators in general.
    Benefit fraud undermines the integrity of the legal 
immigration system. In most cases, it involves the knowing and 
willful misrepresentation of a material fact on a petition or 
application to gain an immigration benefit. Fraudulently 
obtained benefits enable an alien who would otherwise be 
declined a visa or other immigration benefits to enter or 
reside in the United States and live in our communities under a 
guise of legitimacy. Large-scale fraud facilitators, such as 
those found in the Earl David law firm, have the potential not 
only to provide access to illegally obtained benefits and 
documents but to provide coverage for those engaged in criminal 
activity.
    Benefit fraud is complex and challenging to investigate and 
often involves sophisticated schemes and multiple 
coconspirators. These cases can require substantial resources 
and time to investigate and prosecute. USCIS refers suspected 
fraud to the ICE Benefit Fraud Units, or ICE BFUs, for all 
conspiracies as well as individual violators when certain 
criteria are met. Once the fraud referral is received by the 
ICE BFU, the BFUs vet and potentially refer the suspected 
instances of fraud to the appropriate Homeland Security 
Investigations office, or HSI.
    The memorandum of agreement between USCIS and ICE on the 
investigation of immigration benefit fraud was signed in 
September 2008, to formalize this referral process. This MOA 
defines the roles and procedures that enable both agencies to 
focus resources on taking action against criminal 
organizations, fraud facilitators, and corrupt attorneys.
    HSI directs most of its antifraud efforts to the HSI-led 
Document and Benefit Fraud Task Forces, or DBFTFs. There 
currently 19 DBFTFs nationwide working in collaboration with 
our Federal, State, and local partners. DBFTFs combat the 
criminal organizations that exploit the United States 
immigration system and investigate individuals who violate 
criminal or immigration laws who may pose threats to national 
security or public safety.
    While HSI is responsible for investigating the criminal 
aspects of those schemes, it also plays a role in preventing 
unauthorized applicants from obtaining and retaining benefits 
through fraud. HSI recognizes that in investigations of large-
scale benefit fraud, the work does not end with the prosecution 
of the attorney, facilitator, or preparer. To that end, the ICE 
BFUs supply USCIS Fraud Detection and National Security 
Directorate, or FDNS, with its case findings on the completion 
of the criminal case. HSI and USCIS have agreed that HSIs will 
initiate removal proceedings when applicable on subjects who 
were criminally prosecuted. USCIS pursues administrative action 
on the remaining beneficiaries of fraudulent applications 
identified over the course of the investigation.
    This process is aided greatly by FDNS, a major partner in 
our DBFTFs and a significant contributor in the identification, 
investigation, and prosecution of these large-scale fraud 
schemes. Our HSI field offices regularly coordinate on a local 
level with their respective FDNS partners regarding benefits 
suspected to have been obtained fraudulently. This gives USCIS 
the opportunity to take necessary administrative action on 
these cases. By implementing criminal and administrative 
remedies and educating the public on these efforts, we seek to 
prevent the identified broad conspiracies from continuing, 
ensure the profits are eliminated, and deter others from 
perpetrating these schemes.
    The Earl David law firm case is just one example of the 
work HSI, FDNS, and our DBFTF partners have accomplished since 
the task force was established. HSI recognizes the importance 
of ensuring that all aspects of a benefit fraud investigation 
are addressed as it specifically pertains to the people who 
receive a benefit to which they were not entitled. We have 
identified best practices and are evaluating how to 
institutionalize these practices across the board, using our 
existing budget and resources.
    Along with USCIS, we will continue to work on these and 
other benefit fraud initiatives to ensure the integrity of the 
legal immigration system. ICE is committed to working these 
important cases and recognizes the significance of addressing 
the fraudulent beneficiaries identified through our criminal 
investigations.
    Thank you again for the opportunity to appear before you 
today. I would be pleased to answer any questions at this time 
or later.
    Mr. Gallegly. Thank you, Mr. Rodriguez. A particular thank-
you for keeping an eye on the lights.
    [The prepared statement of Mr. Rodriguez follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. You heard the bells go off a few minutes ago. 
What that means is in about 8 minutes we are going to start 
voting. I think we have two votes. I would like to come back 
and finish this hearing. And, hopefully, we won't keep you 
waiting too long. If you can stay with us for another half hour 
after we get back, we can probably wrap this up. But we will 
probably be out for about a half hour.
    Our next witness, Ms. Sarah Kendall, is the Associate 
Director for the Fraud Detention and National Security 
Directorate at U.S. Citizenship and Immigration Services, 
USCIS. In May, 2012, Ms. Kendall joined USCIS directly from the 
National Security staff, where she served as the Director for 
Border and Interior Enforcement since January, 2010.
    Ms. Kendall received her Bachelor's Degree in international 
affairs and Spanish from Trinity University in 1989. She 
received her Juris Doctorate from the University of Houston Law 
Center in 1996.
    Welcome, Ms. Kendall.

   TESTIMONY OF SARAH M. KENDALL, ASSOCIATE DIRECTOR, FRAUD 
 DETECTION AND NATIONAL SECURITY DIRECTORATE, U.S. CITIZENSHIP 
                    AND IMMIGRATION SERVICES

    Ms. Kendall. Chairman Gallegly and Ranking Member Lofgren, 
Members of the Subcommittee, thank you for the opportunity to 
testify before you today on behalf of U.S. Citizenship and 
Immigration Services on the processes for reviewing cases 
associated with attorneys and preparers convicted of 
immigration fraud.
    Created in 2004, the Office of Fraud Detection and National 
Security was promoted to a directorate by USCIS Director 
Alejandro Mayorkas in early 2010 to further reflect the 
prioritization of our agency's mission to help safeguard our 
Nation's security and to protect the integrity of the legal 
immigration system. As the newly appointed Associate Director 
of FDNS, I maintain oversight responsibility for USCIS's fraud 
detection and national security efforts. I am eager to lead the 
directorate and I am excited about the mission and work of 
FDNS, which spans the USCIS priority areas of fraud and 
national security.
    FDNS is responsible for managing procedures and policies 
governing our fraud work, prevention work, and national 
security threats. FDNS performs administrative investigations 
designed to ensure consistent detection, documentation, and 
prevention of immigration benefit fraud.
    USCIS's process for combating fraud involving attorneys and 
preparers includes close collaboration with our partners at ICE 
and our law enforcement agencies. We regularly apply what we 
have learned from these relationships through information 
sharing, investigation, and training.
    As Director Mayorkas testified before this Subcommittee on 
February 15, USCIS has undertaken significant steps to protect 
the integrity of the Nation's immigration system and to help 
safeguard our Nation's security. We take careful note of fraud 
indicators, patterns, and schemes, as we did in the David Law 
Firm case. This allows us to strengthen our standard operating 
procedures and reduce program vulnerabilities.
    I would like to take a minute to reiterate for you just a 
few of these proactive measures and provide a short list of 
what is already detailed in my written testimony on USCIS's 
current progress and prioritization in the area of antifraud 
enhancements.
    Since 2010, FDNS has increased the number of officers, 
analysts, and staff by approximately 25 percent and allocated 
new FDNS positions in field offices and service centers to 
strengthen coordination and collaboration with our front office 
and front line employees. USCIS and ICE have prioritized 
attorney and preparer fraud as one of the priority case types 
that is referred to ICE for criminal investigation and USCIS 
and ICE work closely together to successfully manage such 
cases.
    USCIS has issued recent NTA guidance to all field offices 
that instructs that when there is a finding of fraud in any 
case, the NTA will be issued and the matter will be referred to 
ICE. USCIS has worked with the Department of Justice, the 
Federal Trade Commission, and State and local authorities to 
launch the Unauthorized Practice of Immigration Law Initiative 
and we are members of the Sentinel Law Network. We have 
established guidelines for the eligibility of attorneys and 
other representatives who practice before us. We have 
implemented and improved antifraud training programs nationwide 
to provide adjudicators with new skills for fraud detection, 
referral, and the use of fraud indicators.
    We have launched fraud reporting tools to begin delivering 
fraud bulletins in real time to agency personnel. We have 
implemented the Validation Instrument for Business Enterprise, 
commonly known as the VIBE, to enhance our ability to verify 
key information about suspected sponsoring employers, 
organizations, or companies.
    Earlier in the process, we have performed 17,000 site 
inspections under the Administrative Site Visit and 
Verification Program. Finally, we have enhanced our oversight 
verification efforts through collaboration with the Department 
of State and enhanced information sharing for asylum fraud 
initiatives.
    The fraud improvements I have detailed in my testimony 
today allow USCIS to more swiftly recognize and address fraud 
in the immigration system. I want to assure the Subcommittee 
that USCIS and its FDNS Directorate take every measure to 
ensure that the agency deters, detects, and responds 
aggressively to immigration benefit fraud.
    On behalf of USCIS Director Alejandro Mayorkas and all of 
our colleagues at USCIS, I thank you for your continued support 
of the work of FDNS. Mr. Chairman and Members of the 
Subcommittee, thank you for the opportunity to provide you 
information on the status of our program, and I look forward to 
responding to your questions.
    Mr. Gallegly. Ms. Kendall, thank you very much for your 
testimony.
    [The prepared statement of Ms. Kendall follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. With the panel's patience, we will have two 
votes, and I will do everything possible to have us back by 3 
o'clock. I really do appreciate your patience, something that 
we have no control over.
    The Committee stands in recess until we return from this 
series of votes.
    [Recess.]
    Mr. Gallegly. Calling the Subcommittee back to order. Thank 
you very much for your patience. It seems inevitable that we 
end up having votes right in the middle of our hearings, but we 
have got to keep America going.
    Our next witness is Mr. Chris Crane. Mr. Crane currently 
serves as the President of National Immigration Customs 
Enforcement Council 118, American Federation of Government 
Employees. He has worked as an immigration enforcement agent 
for the U.S. Immigration Customs Enforcement, better known as 
ICE, at the Department of Homeland Security since 2003. Prior 
to his service at ICE, Chris served 11 years in the United 
States Marine Corps. Semper fi and welcome.

 TESTIMONY OF CHRIS CRANE, PRESIDENT, NATIONAL IMMIGRATION AND 
    CUSTOMS ENFORCEMENT COUNCIL 118, AMERICAN FEDERATION OF 
                      GOVERNMENT EMPLOYEES

    Mr. Crane. Thank you, Chairman Gallegly and Ranking Member 
Lofgren. In preparation for my testimony, I spoke with ICE 
attorneys, Citizenship and Immigration Service employees and 
supervisors, and ICE employees and supervisors. All voice 
strong concerns that immigration fraud is widespread and 
ignored by the Federal agencies tasked with enforcing United 
States immigration laws.
    As a rule, when fraud is suspected or confirmed, no action 
is taken against the alien involved or their attorney. While 
fraudulent claims are common during court proceedings, not all 
private attorneys engage in fraudulent activity and not all 
aliens engage in fraudulent activity. Typically, the same 
attorneys engage in fraudulent activities again and again.
    ICE attorneys allege that supervisors and judges openly 
discuss these fraudulent activities but take no action. Some 
private attorneys blatantly lie to ICE, making fraudulent 
claims from being deported. Employees I spoke with are not 
aware of any private attorney being investigated or disciplined 
for attempting or succeeding in preventing the deportation of 
an alien through fraudulent and false claims made to ICE.
    The CIS adjudicators and field supervisors expressed 
similar concerns. Both indicate that CIS supervisors are aware 
that fraud occurs daily, but no action is taken. One employee 
attending a CIS town hall meeting reported that managers told 
CIS employees at the meeting that if 50 percent of the 
application for benefits is fraudulent, it should still be 
approved, showing the extent to which fraud is accepted by 
managers in the field. CIS employees report that aliens and 
their attorneys frequently lie during interviews to obtain 
benefits, but disciplinary action is not sought, no action is 
taken to stop future fraud, and the alien's application is not 
impacted. CIS adjudicators and field supervisors claim that 
training for fraud prevention is not provided and training 
requests are ignored. One CIS supervisors stated, ``It's as if 
they don't want employees trained in fraud detection.''
    Similarly, most employees don't know how to report 
suspected fraud by private attorneys for investigation. Veteran 
CIS and ICE employees all indicated that reports to supervisors 
regarding suspected fraud by private attorneys resulted in no 
action and that as employees they did not know how to file 
reports of fraud outside their chain of command.
    As immigration fraud is a crime, it is no surprise that 
many aliens who receive status through fraud often commit 
crimes after receiving lawful status. These criminal activities 
often result in investigations by ICE. If an investigation 
indicates the alien or attorney engaged in immigration fraud, 
supervisors direct officers to ignore the fraud, officers are 
told that once lawful status is granted to an alien, even 
though violation of law was involved, no action will be taken 
to revoke the alien's status unless that status is revoked 
based on new convictions.
    Likewise, no action is taken against private attorneys 
involved. Employees maintain that ICE and CIS will only take 
action in cases involving large-scale fraud or the media. One 
CIS supervisor confirmed it is the unwritten policy of CIS that 
once lawful status is granted it will not be revoked, even when 
known that the status was obtained through fraud.
    As a rule, there is no consequence to private attorneys or 
their clients who engage in fraud, even when reported by CIS 
and ICE employees. Attorneys who are suspected of fraud 
continue to practice in immigration courts and CIS offices. As 
one ICE attorney stated, Why play by the rules when there is no 
consequence for violating the law?
    Employees believe that CIS has become a production line 
with a singular purpose of approving as many benefits 
applications as possible, ignoring fraudulent activities. 
Resisting these practices results in retaliation by managers.
    Private attorneys arrested for fraud often continue to 
represent aliens inside government facilities. One attorney was 
arrested following grand jury indictment for obtaining 
fraudulent visas for as many as 5,000 clients. Released on 
ankle monitor pending trial, the attorney was permitted to 
enter CIS facilities and continue representing aliens seeking 
benefits. A CIS employee arrested for the same crime would of 
course be prohibited from entering the CIS offices altogether.
    It is alarming that fraud has become an accepted practice 
within our immigration system. In post-9/11 America, it is 
concerning that employees are not trained to detect fraud, 
employee reports of fraudulent activities are ignored, and 
agencies have not adopted zero tolerance policies to stop 
fraudulent activities.
    This concludes my testimony. Thank you.
    Mr. Gallegly. Thank you very much, Mr. Crane.
    [The prepared statement of Mr. Crane follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Our next witness, Ms. Laura Lichter, is the 
President-Elect of the American Immigration Lawyers 
Association, or AILA. She has been an elected member of AILA's 
leadership for over a decade and has served as the 
association's top liaison to key immigration enforcement 
bureaus of the Department of Homeland Security and the 
Department of Justice. Ms. Lichter is AILA's liaison to the 
American Bar Association Commission on Immigration and serves 
on the Federal Bar Association's Immigration Law Section 
Advisory Board. Ms. Lichter recently served on the Homeland 
Security Council's task force on ICE's Secure Communities. She 
is also former chair of AILA's Colorado chapter.
    Ms. Lichter is the founder and managing partner of Lichter 
Immigration and Immigration Practice. Miss Lichter received her 
undergraduate at Swarthmore College and her JD from the 
University of Colorado School of Law.
    Double welcome to you this afternoon, Ms. Lichter.

            TESTIMONY OF LAURA LICHTER, PRESIDENT, 
            AMERICAN IMMIGRATION LAWYERS ASSOCIATION

    Ms. Lichter. Thank you, Chairman, and thank you, Ranking 
Member Lofgren, for inviting AILA to testify on this extremely 
important issue.
    As many of my co-panelists have testified today, terrible 
harm results when unscrupulous individuals prey on the 
ignorance of others, falsely claiming that they can help people 
comply with our complicated immigration laws. The financial and 
human cost to these victims is enormous, as is the cost to 
integrity of the immigration system and the legal profession 
itself.
    AILA takes criminal or ethical violations quite seriously. 
But we are a voluntary bar membership organization. Our members 
must be licensed and in good standing in order to be part of 
our organization. But attorney discipline is the unique 
province of the State Bar and the Disciplinary Council for the 
Executive Office of Immigration Review and the Department of 
Homeland Security. Neither DHS nor EOIR have the authority, 
unfortunately, to effectively go after these criminals, and 
this Federal inaction needs to be addressed.
    AILA itself does not investigate or discipline its members. 
Only a State Bar can revoke the authority to practice law. Loss 
of membership in a voluntary Bar Association, on the other 
hand, has no impact on the authority to practice law and, 
ironically, only impacts the attorneys' access to resources 
that would help make a better lawyer.
    If an AILA member is suspended or disbarred or convicted of 
a serious crime such as immigration fraud, AILA takes immediate 
action to suspend that member. Over the past 10 years, AILA has 
removed from membership for ethics violations an average of six 
attorneys per year. That is an average of .0005 percent of our 
membership.
    When there is a complaint, we make sure that the victims 
know where to bring that complaint and what action they can 
take, whether or not that perpetrator is an AILA member. AILA 
takes its professional obligation to educate its members quite 
seriously. We also strive to educate the public. We have a 
dedicated Practice and Professionalism Center. We provide 
hundreds of hours to CLE each year. We have launched in recent 
years two websites, one in English, one in Spanish, that are 
entitled stopnotariofraud.org that identify how to bring 
complaints against unscrupulous practitioners whether they be 
admitted members of the Bar or simply posing as members of the 
Bar or notarios or immigration consultants.
    Despite these efforts, a handful of attorneys do engage in 
fraud and the effects of that fraud can be devastating. We 
condemn that unethical and illegal practice and remain 
committed to doing what we can as a Bar Association to end that 
practice.
    For our part, when AILA members identify victims of fraud, 
we try to assist those victims to pick up pieces by screening 
those files, providing free consultations, trying to organize 
pro bono representation or reduced fees to those victims.
    This is a serious problem, but I would urge this Committee 
to widen the scope beyond simply looking at immigration 
attorneys. As many of my co-panelists have mentioned today, the 
issue is not simply limited to licensed members of the Bar. It 
is notarios and other unscrupulous people who fill the vacuum 
that is created by a lack of adequate resources for indigent 
and low-income individuals. On AILA's part we try to provide 
pro bono, reach out through clinics, we have a military 
assistance program, and we also sponsor citizenship days to 
make sure that we can actually bring good information out into 
the community.
    I urge the Committee to realize that many of those 
implicated in these fraud schemes are in fact victims. They 
might not have understood that they weren't eligible for the 
benefit they sought. They might not have been terribly well 
educated. They may not have been able to read the applications 
or even seen the applications that were submitted on their 
behalf. They may have even been compelled to sign a blank form 
that was later submitted with inappropriate information on it. 
Weekly, I see people in my office who have been misled by these 
consultants or bad attorneys simply because they went into some 
place and a guy in a suit told them, ``Look, this is how we do 
it. Don't worry. You paid your money. I can get you status.''
    I would suggest that given the complexity of immigration 
laws, that it is quite reasonable for people to be duped by 
those situations. Once people find out that they have been 
victimized, what do they do? Frankly, often not much, mostly 
because they are worried. They are scared. They are 
undocumented. They may not have much trust in the system if 
they come from a country where lawyers part of the problems, 
where there is real corruption. Unfortunately, our State and 
local bar authorities say this is not a priority. We don't see 
much action by them. Frankly, notarios are hard to find and 
harder to prosecute.
    Finally, I would urge the Committee not to confuse the 
question of eligibility or technical issues with actual fraud.
    Mr. Gallegly. Thank you very much, Ms. Lichter.
    [The prepared statement of Ms. Lichter follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Mr. Rodriguez, in your testimony you got into 
quite a bit of depth of the concerns of fraud. Do you believe 
that ICE and USCIS effectively share information and 
collaborate with each other in an efficient manner and how high 
a priority does ICE place on providing resources to immigration 
fraud investigations?
    Mr. Rodriguez. Yes, I do believe we have excellent 
cooperation and exchange of information, and that is evidenced 
by the number of cases that are before the Subcommittee in 
which if not all, most there have been significant FDNS 
participation. In terms of resources, just looking over a 3-
year snapshot, consistently our case hours, basically converted 
to FTEs, have increased at a rate of over 20 percent. 2010, 446 
FTE hours; 2011, 543 FTE hours; and by the third quarter of 
this fiscal year we were already reaching 369. So I do believe 
that the outcomes of our efforts are there. They are part of 
the record. In this hearing specifically the cases show the 
importance that we give to these cases and we have prosecuted 
cases that are completely, or that are extremely sophisticated 
in those schemes and very hard to break and we have done that 
effectively time and time again.
    Mr. Gallegly. What kind of information is provided to USCIS 
by HSI with respect to the instances of fraud and what kind of 
actions might USCIS take in response?
    Mr. Rodriguez. Well, speaking about the type of information 
that we would provide, any information from cooperating 
defendants, information we might have obtained through proffer. 
The information can be generic in the sense of we find 
boilerplate language, but it can also mean this company that is 
referenced in these applications are shell companies. They do 
not exist. And we have testimony to that effect and we provide 
them with a memo for inclusion to the file so that they can 
follow up with their proceedings.
    Mr. Gallegly. Ms. Kendall, how many bogus green card 
petitions did Attorney Koortzky, who used the power of attorney 
to sign petitions, how many were approved by DHS and how many 
of those petitions were revoked and how many aliens who had 
revoked actually been removed?
    Ms. Kendall. I am sorry.
    Mr. Gallegly. The first question is: How many of these 
petitions were approved by DHS? The second question is: How 
many petitions were revoked: And of those that were revoked, 
how many actually were removed?
    Ms. Kendall. In which case?
    Mr. Gallegly. Where Mr. Koortzky used the power of attorney 
to sign petitions.
    Ms. Kendall. I don't know that I have those exact 
statistics at my fingertips.
    Mr. Gallegly. Could you provide those to the Committee in a 
reasonable amount of time for part of the record of the 
hearing?
    Ms. Kendall. It would be my pleasure to do so.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Fine.
    Mr. Crane, in your testimony you paint a pretty grim 
picture of pervasive fraud throughout the system. You state 
little action is taken, even when there is known fraud. To what 
level does the fraud have to rise, in your opinion, before any 
official action is taken, based on your statement?
    Mr. Crane. I think generally speaking it does have to be of 
a very large scale. There has to be a large number of 
individuals involved in it and it has to be something that 
probably is going to be to the scale of hitting the newspapers, 
making the news.
    Mr. Gallegly. Do you think that increased enforcement and 
punishment against private attorneys would help deter pervasive 
policies?
    Mr. Crane. I absolutely believe that is the case, but I 
think that we need to do something at the ground level with the 
employees to encourage them to do their jobs. These are law 
enforcement officers. Let them to do their jobs. Give them the 
time that they need to do the investigations. Give them a 
process to report these instances to and give them a way of 
controlling individuals that come into their offices and commit 
fraud.
    Mr. Gallegly. Thank you. My time has expired. I yield to 
the gentlelady, Ms. Lofgren.
    Ms. Lofgren. Thank you very much, Mr. Chairman. I think 
that in some cases we are doing too much and in some cases not 
doing enough. This is part of the concern I have. We had a 
hearing a while ago about the use of requests for evidence. And 
I have a concern about when that is triggered. My understanding 
is that additional review is triggered if two or more of the 
following indicators are present: Less than $10 million in 
revenue, less than 25 employees, or the company is less than 10 
years old. Well, that is a startup. Startups aren't frauds per 
se. That is my district.
    So I don't understand why that would be the indices. And 
yet I have seen requests for evidence to the largest employer 
in my district--not to say whether or not the petition should 
be approved. I mean, that is a separate issue. Does the company 
exist? Well, yeah. They have 50 buildings. Or, requests for 
financials from Microsoft or a request from the former prime 
minister of a major European country for evidence of his past 
employer--the country he ran. Those are things that are just 
crazy. And yet there are some things out there that really 
should be investigated.
    What are you doing to try and get the remedies applied to 
the problem areas and not bug the non-problem areas?
    Ms. Kendall. Thank you. We are always conscious as an 
agency of our obligation to make sure that we are managing our 
programs in a rational and data-driven way. When we implemented 
the VIBE, one of the best options that the VIBE brought into 
our organization was the ability to have third-party 
information brought into the adjudicative process. This allows 
us to have a better quality way of verifying information so 
that we can reduce the number of unnecessary RFEs, for example. 
In addition to which, for example, we are doing an internal 
review in our site visit program to see how we can be more 
efficient in the way that we use site visits so that we are not 
unnecessarily burdening those that have been subject to site 
visits and perhaps we are being more fiscally responsible in 
reducing the number of site visits. Bundling, for example, if 
we can do multiple visa verification processes in one visit of 
a location as opposed to visiting the same location over and 
over.
    Ms. Lofgren. That is very helpful. Whether or not the visa 
should be issued to a specific person is a separate issue. 
Whether the employer exists, you can find that out.
    Ms. Kendall. So we are always conscious of our obligation 
to improve our processes, find more ways to be more effective 
with the resources we have, and to work with communities of 
interest within the immigration world to be effective, and we 
are always interested in suggestions and concerns from the 
public. For this reason, we have a very proactive and 
aggressive means of soliciting comments from the public, and we 
are interested in any ideas the Committee has.
    Ms. Lofgren. Let me ask you, you heard Mr. Crane's 
testimony and it included pretty extravagant assertions made 
about fraud in the agency. Now I am mindful that Mr. Crane is 
president of his union, which we respect, but he is not 
representing ICE trial attorneys or HSI agents. Do you have 
comments on the assertions that he made as someone who actually 
is in charge of this?
    Ms. Kendall. USCIS is absolutely committed to an 
adjudications environment which combats, detects, deters fraud 
in our process. We have an obligation to the American public to 
ensure the integrity of the immigration process. Director 
Mayorkas came to this Subcommittee in February of 2012 and 
expressed completely our obligation and commitment to getting 
to the correct answer in every adjudication that we undertake. 
This is reflected in the fact that our primary and first 
strategic objective at USCIS is national security and fraud 
detection. This is reflected by Director Mayorkas' elevating 
fraud detection and national security to full directorate 
status in 2010, making it on par with the adjudications 
directorate within the agency.
    From 2010 forward, in the last 2 years, he has increased 
and the agency has invested 25 percent increases in personnel 
at the front line agency level to make sure that our 
adjudication staff is able to more effectively combat the fraud 
and national security threats that we find in our immigration 
beneficiaries stream.
    Further, we are currently implementing, in addition to the 
basic training on fraud that we do for every incoming employee 
in the agency, we are right now implementing fraud training for 
all existing employees that covers fraud indicators, how to 
better work with existing FDNS personnel, how to better 
understand FDNS processes, including a statement of findings, 
which is the fundamental document that records our 
investigative processes. We anticipate that that will be 
finished nationwide within the adjudications corps I believe in 
early fiscal year 2013.
    We have further inculcated into our standard operating 
procedures requirements of referral of fraud cases from the 
adjudications to the FDNS side of the house to make sure every 
adjudicator in our agency knows where fraud is to be referred 
and can be trained on how that can be done.
    Further, through my testimony I have explained, but I will 
reiterate this because it is important to understand this, in 
every opportunity given built antifraud measures into our 
programs and we look aggressively to improve those programs at 
every opportunity. We have built the Administrative Site Visit 
and Verification Program, which this year completed 17,000 site 
visits, which is about compliance, not ``I gotcha'' culture but 
compliance with our existing site visit, which is 2,000 more 
site visits than last year's program.
    We have increased our international information sharing on 
fraud for asylum cases. We have implemented a nationwide 
antifraud training for adjudicators, which I have just 
mentioned. We have basically built MOAs with ICE, in which the 
three priority case types--preparer, attorney, and interpreter 
case fraud--is a priority, which is separate from conspiracy 
and multiple conspiracy fraud.
    And finally, we have made sure that referral of NTAs to 
ICE, because of fraud, is a priority.
    These are the priorities of the agency. I believe that they 
speak for themselves, ma'am.
    Ms. Lofgren. Thank you very much.
    Mr. Gallegly. The time of the gentlelady has expired.
    Mr. King. Thank you, Mr. Chairman. I thank the witnesses 
for your testimony. Some of that I think I heard a couple of 
times and so I have got that soaked in. But I have a question 
for Ms. Kendall, and that is that some in this country would 
advocate that we really shouldn't have borders, that if you 
just let the supply and demand of the labor markets determine 
the flow of people, that people have a right to go anywhere in 
the world they would like to go and work and earn a living and 
provide for their families, et cetera. So I just would point 
out that that philosophy does exist in this country and other 
places around the world.
    If that were the public policy of the United States of 
America, would there be anything for USCIS to do?
    Ms. Kendall. If there were fraud involved in that, there 
would be a job for FDNS, sir.
    Mr. King. Could I point out that if there were completely 
open borders, without any restrictions, there wouldn't be any 
fraud. So is your answer there wouldn't be anything for USCIS 
to do if we didn't have immigration laws?
    May I ask the witness to answer yes or no to that?
    Ms. Kendall. Sir, I don't have a clear answer, beyond I 
don't know----
    Mr. King. Well, I think that is the does the Sun come up in 
the East question for USCIS, actually.
    Ms. Lofgren. Will the gentleman yield?
    Mr. King. I would be happy to yield.
    Ms. Lofgren. I think that, number one, and I appreciate the 
gentleman yielding, I am not familiar with the individuals who 
are recommending no borders, but certainly it is the U.S. 
Immigration and Citizenship Service. And so individuals who are 
applying for citizenship, if we didn't have immigration laws, 
we would still have people applying to become U.S. citizens.
    Mr. King. Reclaiming my time.
    Ms. Lofgren. I think obviously the witness is a little 
flummoxed by the hypothetical, and I think I understand why.
    Mr. Gallegly. It is the gentleman's time.
    Mr. King. Reclaiming my time from the gentlelady from 
California who is well versed in these type of questions and an 
immigration attorney in her own right whom I respect. I think 
it is important for us to ask these kind of questions because 
each time we go to work during the day there has got to be a 
purpose, and that purpose is that Congress writes laws, and 
then we direct the executive branch to carry out those laws, 
and looking again, reviewing the testimony of Mr. Rodriguez, it 
says that a benefit fraud involves, I quote, ``the knowing and 
willful misrepresentation of a material fact on a petition or 
application to gain an immigrant immigration benefit. Types of 
benefit fraud include employment-based fraud, asylum fraud, and 
marriage fraud.''
    And as I read that and I listen to the testimony, I began 
to wonder, and I pose this question again to you, Ms. Kendall, 
if the President's memorandum that was issued by Secretary 
Napolitano dated June 15th which sets up four classes of people 
and directs USCIS to issue work permits, if that is implemented 
into place, is there going to be more or less reason for 
benefit fraud to come before USCIS?
    Ms. Kendall. I am not in the position to discuss the 
particulars of the deferred action memorandum and program that 
will flow from it today.
    Mr. King. Okay, thank you, Ms. Kendall.
    Ms. Kendall. I can----
    Mr. King. I understand that you are not in a position to 
answer those questions. I will just answer it for you that if 
somebody is between the ages of 16 and 30 and there is no 
reason for marriage fraud if you can claim that you have been 
in the United States for 5 years, went to school, et cetera. So 
I would submit that we are going to see a lot more fraud, a lot 
more document fraud, a lot more fraud from people that want to 
qualify under this selective amnesty program that the President 
did his press conference on June 15th that is the subject of 
this memorandum, and we are here discussing fraud, and every 
time that we see some form of amnesty, we see a tremendous 
amount of fraud that is associated with it. I might take the 
1986, for example, that the numbers tripled on what were 
anticipated. We are looking with this memorandum of 800,000 to 
1.4 million, and that likely will triple, and I will go on 
record as saying that is more likely than those estimates being 
accurate.
    But I turn to Mr. Crane and ask him, do you anticipate that 
there will be a significant amount of fraud associated with 
this memorandum of June 15th?
    Mr. Crane. Absolutely I do as well as employees in the 
field on the CIS and ICE side. I think from CIS managers that I 
have talked to in the field, there is some discussion at CIS 
headquarters that this is going to be done through the service 
centers, which would mean that the interview process would more 
than likely be taken out, so people would just basically be 
sending their applications to an individual, they would be 
approved, there will be no interview process, and that is going 
to open the doors wide open for fraud in multiple different 
ways, one of them being that that fraud is not going to be 
detected, those trends are not going to be detected until it is 
all over. I mean, we are dealing today, CIS and ICE, with the 
fraud that took place back in the 1980's, we are still dealing 
with that today. So absolutely employees in the field are very 
concerned that this is going to result in widespread fraud.
    Mr. King. Have you seen any direct effect of this 
memorandum to date?
    Mr. Crane. I have not, sir. In terms of fraud I have not.
    Mr. King. I thank you and I yield back.
    Mr. Gallegly. I thank the gentleman for yielding back. Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Ms. Kendall, do you know who will be charged with 
investigating to determine whether or not the June 15 memo is 
applicable for those seeking, I think the word the 
Administration uses is ``deferred action?'' Whose 
responsibility will it be to determine whether or not those 
factors have been met?
    Ms. Kendall. USCIS I believe is the responsible party for 
adjudicating those requests, sir.
    Mr. Gowdy. So whose resources will be consumed determining 
whether or not all of those qualifiers are met in terms of age, 
the absence of any serious misdemeanor or felony convictions, 
education, whose responsibility is it to expend the resources 
to determine whether or not those qualifying conditions have 
been met?
    Ms. Kendall. I mean, beyond the basic idea that USCIS has 
been determined as the agency that will adjudicate the deferred 
action requests----
    Mr. Gowdy. Well----
    Ms. Kendall [continuing]. I am not in a position to discuss 
the particular program details, although I am part of a team of 
leaders at USCIS that is integrally involved with program 
development for the deferred action program, particularly----
    Mr. Gowdy. I am probably missing something because I 
thought the reason for that memo was because you want to direct 
your resources other places, and then it just struck me when 
the Secretary was here last week whose resources are going to 
be consumed determining whether or not the memo is applicable 
or not?
    Ms. Kendall. I can address the issues of attorney preparer 
fraud, that is what I came to talk about here today, sir. I can 
address only those issues for today's hearing. I am part of a 
team of professionals who are preparing the deferred action 
program, consistent with what is expected in that memo. I can't 
offer any further details, as that program is in development at 
this time.
    Mr. Gowdy. Mr. Crane, if my notes are correct, you said 
half the information, that adjudicators were told that as long 
as half the information contained in an alien's application for 
benefits is true, the application should be approved?
    Mr. Crane. That is what one supervisor allegedly told their 
employees, yes.
    Mr. Gowdy. Half just doesn't seem like that much. Fifty 
percent is an F on the test in South Carolina. Trust me, I 
know, from firsthand experience, a 50 is an F.
    Mr. Crane. One question can mean the difference between 
having legal status and not having it. So for 50 percent to be 
fraudulent, it is completely unacceptable. I mean, one question 
is not acceptable on an application for status in the United 
States.
    Mr. Gowdy. Ms. Lichter, can you talk to me about punishment 
for attorneys who engage in fraud, the full panoply of 
punishment. You mentioned the Bar can suspend you or disbar you 
I suspect. Some States the Supreme Court handles sanctions 
against attorneys. Are there any criminal statutes that would 
be applicable to attorneys who engage in fraud, pervasive or 
otherwise?
    Ms. Lichter. And my general disclaimer is I am an 
immigration attorney, not a criminal defense attorney.
    Mr. Gowdy. That is okay, I am sure you are aware of what 
can send you to jail and what cannot.
    Ms. Lichter. Right. And framing----
    Mr. Gowdy. You don't do homicide cases, but you know you 
can't do that, so----
    Ms. Lichter. Correct. As a practical matter, I think most 
attorneys are going to run afoul of the ethical restrictions in 
their Bar long before they trip any criminal sanctions, and if 
the Bar----
    Mr. Gowdy. Are there criminal sanctions?
    Ms. Lichter [continuing]. If the Bar is doing their job, 
that person's license to practice law would be revoked.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Gowdy. I will be happy to.
    Ms. Lofgren. I would just note we had a situation in my 
county where there was a member of the Bar who was defrauding 
people. We took it to the district attorney, they prosecuted 
them for theft.
    Mr. Gowdy. Under State law?
    Ms. Lofgren. Under State law, and he did time.
    Mr. Gowdy. Good. Punishment for those--you used the term 
``victims,'' that may be the appropriate phraseology in some 
instances, and ``co-conspirators'' may be the appropriate 
phraseology in some other instances. Again, what is the full 
panoply of consequences for those who--not victims, not people 
who were taken advantage of, but people who were just willing 
to circumvent the system and go to attorneys in an effort to 
have fraudulent documents prepared, what is the full panoply of 
consequences for those people who are not attorneys?
    Ms. Lichter. Well, as a practical matter, the consequences 
that are faced by the true bad actors are, unfortunately, 
almost exactly the same as for the true victims of these scams. 
Certainly criminal proceedings might be appropriate in certain 
circumstances. By and large most people who find themselves on 
the wrong end of an application are finding themselves 
permanently barred from ever adjusting their status or ever 
finding a path toward citizenship. We have a very unforgiving 
system, and my biggest concern with some of the seeking out of 
fraud is not trying to take enough time to understand that we 
have probably more victims here than true co-conspirators.
    Mr. Gowdy. Mr. Chairman, my time has expired.
    Mr. Gallegly. I thank the gentleman. I am going to take the 
privilege of the Chair and ask one last question of Ms. 
Lichter. As an immigration lawyer and as someone who is well 
known across the country as an immigration lawyer, can you tell 
me what you understand the statute for the penalty for either 
manufacturing or using a counterfeit document for immigration 
purposes, what the penalty is in the statute?
    Ms. Lichter. It again is going to depend on whether 
somebody is prosecuted under a State law or under Federal law.
    Mr. Gallegly. I am talking about Federal law.
    Ms. Lichter. Honestly, I do immigration civil defense, so I 
know that if somebody has a particular conviction the first 
thing I am going to look to see, is this a bar to 
admissibility, is this a ground of removability? And then I am 
going to take my analysis from there.
    Mr. Gallegly. Well, I would just advise that you may take a 
look at the 1995 law and see that the penalty for 
counterfeiting a document for this purpose or the penalty for 
using such document is exactly the same as counterfeiting 
currency or using counterfeit currency. See, we all leave today 
a little more learned.
    With that, I appreciate all of the witnesses' testimony, 
and I would ask that all Members have 5 legislative days to 
submit to the Chair additional written questions for the 
witnesses which will be forwarded and ask the witnesses to 
respond as promptly as you can so the answers will be made a 
part of the record of the hearing. Without objection, all 
Members have 5 legislative days to submit any additional 
material for inclusion in the record, and with that the 
Subcommittee stands adjourned.
    Thank you.
    [Whereupon, at 3:53 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
